<html>
<title> - PREVENTING AND ADDRESSING SEX TRAFFICKING OF YOUTH IN FOSTER CARE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                     PREVENTING AND ADDRESSING SEX


                  TRAFFICKING OF YOUTH IN FOSTER CARE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2013

                               __________

                          Serial No. 113-HR09

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          




                   U.S. GOVERNMENT PUBLISHING OFFICE
                  
 89-541                   WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 

         
         
         


                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

 SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                 LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                DAVID G. REICHERT, Washington, Chairman

TODD YOUNG, Indiana                   LLOYD DOGGETT, Texas
MIKE KELLY, Pennsylvania             JOHN LEWIS, Georgia
TIM GRIFFIN, Arkansas                JOSEPH CROWLEY, New York
JIM RENACCI, Ohio                    DANNY DAVIS, Illinois
TOM REED, New York
CHARLES W. BOUSTANY, JR., Louisiana







                            C O N T E N T S

                               __________

                                                                   Page

Advisory of October 23, 2013 announcing the hearing..............     2

                               WITNESSES

PANEL 1:

The Honorable Erik Paulsen, U.S. Representative from the State of 
  Minnesota, Testimony...........................................     6
The Honorable Louise Slaughter, U.S. Representative from the 
  State of New York, Testimony...................................     9
The Honorable Ted Poe, U.S. Representative from the State of 
  Texas, Testimony...............................................    16
The Honorable Karen Bass, U.S. Representative from the State of 
  California, Testimony..........................................    19
The Honorable Orrin G. Hatch, U.S. Senator from the State of 
  Utah, Testimony................................................    26

PANEL 2:

Withelma ``T'' Ortiz Walker Pettigrew, Board Member, Human Rights 
  Project for Girls, Testimony...................................    30
John Ryan, CEO, National Center for Missing and Exploited 
  Children, Testimony............................................    38
The Honorable Bobbe J. Bridge, President, CEO and Founder, Center 
  for Children and Youth Justice, Testimony......................    50
Melinda Giovengo, Ph.D., Executive Director, YouthCare, Testimony    61
Ashley Harris, Child Welfare Policy Associate, Texans Care For 
  Children, Testimony............................................    69

                       SUBMISSIONS FOR THE RECORD

Foster Family Based Treatment Association........................    91







   PREVENTING AND ADDRESSING SEX TRAFFICKING OF YOUTH IN FOSTER CARE

                              ----------                              


                      WEDNESDAY, OCTOBER 23, 2013

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:35 p.m., in 
room 1100, Longworth House Office Building, the Honorable Dave 
Reichert [Chairman of the Subcommittee] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

 Chairman Reichert Announces Hearing on Preventing and Addressing Sex 
                  Trafficking of Youth in Foster Care

1100 Longworth House Office Building at 2:00 PM
Washington, October 16, 2013

    Congressman Dave Reichert (R-WA), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on ways to improve the child 
welfare system to prevent sex trafficking of youth in America's foster 
care system. The hearing will take place at 2:00 pm on Wednesday, 
October 23, 2013, in Room 1100 of the Longworth House Office Building.
      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include experts working to reduce the vulnerabilities of 
youth in foster care as well as representatives of organizations who 
serve victims of sex trafficking. However, any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.
      

BACKGROUND:

      
    Since the early 1960s, the Federal Government has reimbursed States 
for part of the cost of providing foster care to children from needy 
families. In FY 2012, the Federal Government provided States $4.2 
billion to support monthly payments to foster parents, case management, 
staff training, and data collection. The goal of this funding is to 
ensure foster parents can support children from needy families when the 
child cannot safely remain at home.
      
    While foster care often protects children from further abuse and 
neglect, children who stay in foster care for extended periods--
especially those who leave foster care at age 18 without being placed 
in a permanent home--have troubling outcomes. For example, research 
shows that children who spend an extended duration in foster care are 
less likely to graduate from high school, attend college, be employed, 
or have enough income to support a family than other youth. They are 
also more likely to become teen parents, collect welfare, become 
homeless, be arrested, or use drugs.
      
    In some cases, certain child welfare policies may unintentionally 
undermine the well-being of children placed in foster care. As the 
Subcommittee reviewed in a hearing in May 2013, some foster care rules 
have made it difficult for foster youth to participate in sports, sleep 
over at a friend's house, obtain a driver's license, get a part-time 
job, or engage in other age-appropriate activities. Although these 
policies are often well intentioned, they may inadvertently increase a 
young person's isolation and separation from family, friends, and the 
surrounding community, making them more vulnerable to victimization.
      
    One of the most devastating examples of this vulnerability is when 
children in foster care become victims of sex trafficking. Reports 
suggest a majority of children involved in sex trafficking are either 
currently in foster care or have been involved with the child welfare 
system in the past. In 2010, officials in Los Angeles reported that 59 
percent of juveniles arrested for prostitution were in the foster care 
system. Of children reported missing to the National Center for Missing 
and Exploited Children who are also likely sex trafficking victims, 60 
percent were in foster care or group homes when they ran away. Research 
cited by the U.S. Department of Health and Human Services shows the 
majority of sex trafficked youth experienced sexual abuse growing up, 
and victims of sexual abuse are 28 times more likely to be involved in 
prostitution than children who have not suffered such abuse. Even 
though a history of prior sexual abuse places many children in foster 
care at far greater risk of sex trafficking, the child welfare system 
today does not make systematic efforts to identify and help those at 
high risk of being trafficked.
      
    In announcing the hearing, Chairman Reichert stated, ``Even though 
foster care is meant to protect children who have been abused, research 
shows that most victims of child sex trafficking come straight from the 
foster care system. This is totally unacceptable. During my law 
enforcement career, I saw first-hand the terrible tragedies of young 
women involved in the sex trade. We can't continue to allow kids in 
foster care to become victims of this terrible crime. We owe it to them 
to ensure our nation's foster care system does all it can to protect 
them from predators so they can live safe, happy, and successful lives. 
For too many kids in foster care, we are not living up to that 
promise.''
      

FOCUS OF THE HEARING:

      
    This hearing will review how the child welfare system currently 
works to prevent the sex trafficking of youth in foster care, how the 
needs of sex trafficking victims are addressed, and how Federal laws 
and policies might be improved to better ensure the safety and well-
being of youth at risk of abuse and neglect.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Please click here to submit a 
statement or letter for the record.'' Once you have followed the online 
instructions, submit all requested information. Attach your submission 
as a Word document, in compliance with the formatting requirements 
listed below, by November 6, 2013. Finally, please note that due to the 
change in House mail policy, the U.S. Capitol Police will refuse 
sealed-package deliveries to all House Office Buildings. For questions, 
or if you encounter technical problems, please call (202) 225-1721 or 
(202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman REICHERT. Welcome to today's hearing.
    We will start with my opening statement. And the staff has 
prepared, sort of, some of what I have experienced in my life. 
They have about two pages of my experience as a sheriff and a 
detective working with people on the street. I think they were 
trying to put me in a box to shorten up my statement, so I am 
going to read from that, because if I don't read from it, I 
will probably get off into all kinds of different examples and 
stories and it could take us a while.
    I think most people know that before being elected to 
Congress I spent 32 years working in law enforcement in King 
County. And I became a sheriff in 1997 and left in January of 
2005 to come to Congress. I saw firsthand the tragedies that 
children face when they are not cared for by loving parents.
    It was in the sheriff's office where I first witnessed the 
horrors of child sex trafficking, and it convinced me that we 
needed to do more to protect our youth at risk of abuse. And in 
late summer in 1982, I began a 20-year journey that would focus 
my attention on this issue like nothing else ever could.
    On August 12th of 1982, I was called to investigate the 
death of a young woman whose body was found in the Green River 
just south of Seattle in suburban Kent, Washington. Of course, 
I didn't know then that that was the beginning of 20 years. I 
thought that I was investigating one murder. Three days later, 
I received a call about two more bodies being found in the 
river. And as I was investigating that crime scene, I found a 
third body on the banks of the river.
    Finding these victims began our 2-decade hunt for a man who 
became known as the Green River Killer, who, once caught, 
confessed to killing more than 70 young women who had been 
involved in the sex trade. Of the 48 known victims of the Green 
River Killer, at least 17 were minors--children who had been 
abused or neglected, who had run away from home, who had been 
victimized and ultimately killed.
    Ridgway pled guilty to 49 murders and, like he said, 
probably killed 70 to 80. The sad part about this story is the 
families who will never see their daughters again, lives lost, 
of course. People recognize that. But the community didn't see 
these children, driving from home to work, from work to home. 
They were invisible. So this issue is not just an abstract 
problem from a faraway place for me; it is personal.
    As chairman, I focused on how we can improve the child 
welfare system and help children in foster care lead successful 
lives. One of the most devastating examples of the 
vulnerability of kids in foster care is when they become 
victims of sex trafficking. In 2010, officials in Los Angeles 
reported that 59 percent of juveniles arrested for prostitution 
were in foster care. Of children reported missing to the 
National Center for Missing and Exploited Children who were 
also likely sex trafficking victims, 60 percent were in foster 
care or group homes when they ran away.
    Research cited by the U.S. Department of Health and Human 
Services shows the majority of sex trafficked youth experience 
sexual abuse growing up. Victims of sexual abuse are 28 times 
more likely to be involved in prostitution than children who 
have not suffered such abuse.
    I think everybody in this room recognizes, and I hope that 
people across America recognize, we cannot allow this to 
continue. We owe it to these children to ensure our Nation's 
foster care system does all it can to protect them so that they 
can live safe and happy and successful lives. For too many kids 
in foster care, we are not living up to that promise.
    That is why the topic of today's hearing is so critical to 
me and why I know it is important to each of our witnesses 
today. And I look forward to hearing from each of the witnesses 
in both panels.
    And now I yield to Mr. Doggett for his opening statement.
    Mr. DOGGETT. Thank you so much, Mr. Chairman.
    We are aware that nearly 150 years ago our Nation banned 
all forms of slavery through the passage of the 13th Amendment, 
but the protection of that promise has eluded too many children 
who are enslaved, effectively, by really cruel masters. While 
there is not any one piece of legislation that will stop sex 
trafficking of children, we can't allow complacency to stop us 
from doing everything in our power to put a stop to this.
    Our first task in this subcommittee, given our 
jurisdiction, is to ensure the child welfare system doesn't 
become a pipeline to prostitution. The abuse and neglect that 
children suffer before coming into foster care already make 
them prime targets for those who prey on children. A sense of 
isolation that often comes when children are removed from their 
homes makes them even more vulnerable. And when children run 
away from home, the risk grows further still.
    Without the protection of the foster care system, abused 
and neglected children would be even more at the mercy of 
predators and sex traffickers. But the system needs to become 
more cognizant of the problem and more forceful in developing 
strategies to stop it. I note one survey that was conducted by 
the Los Angeles Probation Department revealing that a majority 
of the juveniles arrested on prostitution were in the foster 
care system already, and that ought to set off an alarm for us.
    Some policies that generally help foster children, such as 
better connecting them with relatives and helping them lead 
more normal lives, are important. This subcommittee has held 
hearings on these issues, and yesterday we passed bipartisan 
legislation to better promote the adoption of children in 
foster care.
    I expect that we will hear about the need for increased 
housing options for the victims of trafficking, improved 
coordination and collaboration among all the various agencies 
and programs that come into contact with children, and that we 
need to ensure that children who are trafficked are not treated 
like criminals but the victims that they truly are.
    In Texas, we have a number of champions who have worked on 
this. I look forward to hearing from Ashley Harris, who has 
come up from Texas with Texans Care for Children and who has 
worked with State Senator Leticia Van de Putte, State 
Representative Senfronia Thompson, and other members of our 
legislature to deal with this problem at the State level.
    I particularly look forward to hearing from all of our 
colleagues on their recommendations for what legislative 
initiatives we can take and how we can work collaboratively on 
a bipartisan basis to address this truly serious problem.
    And I yield back.
    Chairman REICHERT. Thank you, Mr. Doggett.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record.
    I want to remind our witnesses, please, to limit their oral 
testimony to 5 minutes. However, without objection, all the 
written testimony will be made a part of the permanent record.
    On our first panel this afternoon, we will be hearing from 
several of our own colleagues, as Mr. Doggett said. And it is 
sometimes unusual in a subcommittee hearing to have the 
interest of a number of Members, so it is really an honor to 
have the four of you here. And we will be hearing from Senator 
Hatch via a video presentation later on.
    So the first panel today is the Honorable Eric Paulsen of 
Minnesota, who, by the way, was acting chairman of this 
subcommittee last year; Honorable Louise Slaughter of New York; 
Honorable Ted Poe of Texas; the Honorable Karen Bass of 
California; and, as I mentioned, Senator Hatch of Utah will 
present later.
    Mr. Paulsen, you are recognized for 5 minutes.

    STATEMENT OF THE HON. ERIK PAULSEN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. PAULSEN. Well, thank you, Mr. Chairman and Ranking 
Member Doggett. I want to thank you for holding this hearing 
today and bringing light to an issue that is all too often 
ignored.
    It is very easy and comfortable to think that sex 
trafficking happens only outside the United States, but the 
truth is that the exploitation of our children happens every 
day all across the country and even in our own backyards.
    I recently visited Breaking Free, which is a Minnesota 
organization run by a survivor of trafficking whose mission is 
to educate and provide services to women and girls who have 
been the victims of abuse and commercial sexual exploitation. 
And while there, I had the opportunity to meet with victims and 
to hear their stories. Breaking Free has beds that are 
exclusively used for child trafficking victims. And I was 
shocked to learn, Mr. Chairman, that these beds are full almost 
every night and they are looking for additional capacity.
    The Department of Justice reports that, between 2008 and 
2010, 83 percent of sex trafficking victims found within the 
United States were U.S. citizens, and the average age of a 
girl's entry into prostitution or sex trafficking is 12 to 14 
years old. That is the seventh grade.
    Sadly, the foster care system is rife with opportunities 
for predators to exploit these young girls. Recently, the 
Chicago Tribune reported how group facilities are a breeding 
ground for the recruitment of children into sex trafficking, 
saying, quote, ``Because many girls in foster care feel starved 
for a sense of family, experts say it is not uncommon for pimps 
to target group homes and groom girls for prostitution by 
giving them attention and gifts. They often let the girls think 
they are dating, and they even used one foster child to recruit 
others.''
    Youth who have been involved in the foster care system are 
also more likely to become runaways or to become homeless at an 
early age. Minneapolis Police Sergeant Grant Snyder, who works 
full-time fighting youth prostitution and trafficking, reports 
that there is a very strong connection between runaways and 
homeless youth and sex trafficking victims. He says all of 
their trafficking victims are a part of that population.
    And youth who age out of the foster care system often have 
little or no income support, limited housing options, and are 
at a higher risk to end up out on the streets. Youth that live 
in residential or institutional facilities often become 
homeless upon discharge.
    Sadly, the consequences for these children are dire. Girls 
who become victims of sex trafficking may face a range of both 
physical and mental maladies, including reproductive health 
issues, pain, weight loss, depression, PTSD, anxiety disorders, 
and suicidal thoughts.
    When I talk to experts, over and over again they say there 
is a general lack of understanding of the problems, and, 
therefore, the victims aren't getting the proper services and 
care they need.
    Earlier this week, I actually met with the Ramsey County 
Attorney in Minnesota John Choi, and he said, ``Just like 
domestic violence decades ago, child sex trafficking is not 
getting the attention that it needs. There is not a strong 
awareness of the youth trafficking problem. People don't know 
that it is going on, and, therefore, they don't know what to 
look for.'' He went on to say that, ``in order to prevent 
youths from becoming victims of sex trafficking, we need better 
information as to what is happening, where, and to whom. We 
need to identify trends, and then help fill in the gaps.''
    That is why earlier this year I introduced bipartisan 
legislation, along with Representative Slaughter, to help 
provide reliable data, particularly as it relates to children 
in the child welfare system. It takes an important first step 
by requiring that each State's foster care and adoption 
assistance plan contains a description of the specific measures 
taken to provide services to children who are the victims of 
sex trafficking.
    It also requires children welfare agencies to immediately 
notify the proper authorities when children go missing, either 
from their homes or from childcare institutions. This 
information will all go to the FBI, where we can keep a 
comprehensive database.
    And this bill will also classify that these victims, that 
they are just that, they are victims, not criminals, which they 
are sometimes labeled today. We need to make sure that the 
victims are able to come forward without the fear of 
prosecution and given the proper care and protection, they are 
not just thrown in jail.
    This is an issue that people don't always like to talk 
about. And while we read stories about it going on in foreign 
countries, the reality is it is happening right in our 
backyards. But by pooling our resources and gathering ideas and 
intelligence from as many sources as we can, we can start to 
fight back and save the lives of these innocent youth. This 
legislation is a product of ideas from law enforcement and 
nonprofit organizations that understand the problem, and, also, 
they know very real what the practical ways are to combat it.
    I sincerely appreciate the opportunity to testify, and I 
commend the committee for bringing attention to this very 
important topic.
    Chairman REICHERT. Thank you, Mr. Paulsen.
    [The prepared statement of Mr. Paulsen follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      

                                 <F-dash>

    Chairman REICHERT. I will just take a moment to point out 
for people who might be watching C-SPAN and those in the 
audience, this is one of those few moments where you see some 
true bipartisanship, so we have Democrats and Republicans here 
testifying today.
    So it is an honor to have you, Ms. Slaughter. You are 
recognized for 5 minutes.

  STATEMENT OF THE HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. SLAUGHTER. Thank you very much, Mr. Chairman. And I am 
very pleased to be here, delighted to co-sponsor this with Mr. 
Paulsen--and Congressman Poe and I have worked on similar 
issues before--and, certainly, to be here with my colleague, 
Karen Bass. This is a most important issue to all of us, and I 
thank you for holding this hearing and giving me the 
opportunity to come to speak.
    We have all said so many times and we believe with all our 
hearts that the children in this country are our most important 
resource. All of us who are parents and grandparents know the 
lengths that we would go to to protect our children from harm. 
And we wish that every child had the opportunity to grow up in 
a family that loved and protected them, but, unfortunately, 
that is not the case. As a result, as we are here today, 
400,000 children are in the foster care system.
    And there have been great improvements in recent years in 
terms of reducing the numbers of children in foster care and 
increasing the number of children who find permanent and loving 
homes. We should acknowledge and be proud of the advancements 
that have been made, particularly the focus on supporting youth 
as they age out of the system.
    But the fact of the matter is that the majority of foster 
care parents are loving and supportive individuals who open 
their hearts and their homes. Foster care parents can 
rightfully be described as the better angels among us, and they 
deserve to be recognized for the incredible difference they 
make in the world every day. But far too many children in the 
foster care system don't have that benefit.
    But even for those incredible champions, protecting young 
people in foster care from the threats of the outside world is 
a very big challenge. And statistics tell us that foster 
children are exceptionally vulnerable to those who seek to 
exploit children, as Congressman Paulsen has told us.
    The National Center for Missing and Exploited Children 
tells us 60 percent of runaways who are victims of sex 
trafficking were at one time in the custody of social services 
or in foster care. In my home State of New York, 85 percent of 
the trafficking victims have prior child welfare involvement. 
To say that I am completely appalled and embarrassed by that 
number is an understatement. While State-specific numbers vary 
throughout the country, they all tell us that much more needs 
to be done.
    And I am proud to be one of the co-sponsors of H.R. 2744, 
the Child Sex Trafficking Data and Response Act, sponsored by 
my colleague, Mr. Paulsen. And this bill, to go over it again--
and I know you have heard it, but we can't hear it too much, 
because this is such an important bill, and it must be 
addressed if we are going to reduce the incidence of sex 
trafficking in the United States, which is growing at terrible 
rates.
    First, it identifies and documents children within the 
welfare system who are victims of sex trafficking. Then it 
trains the child protective service workers to identify and 
provide the services needed to victims of sex trafficking; 
coordinates efforts with State law enforcement, juvenile 
justice, and social services; and reports the number of 
children known or suspected to be the victims of trafficking 
each year.
    Now, all of these approaches are good and necessary, but 
the part of this bill that is of primary importance to me is 
that the Child Abuse Prevention and Treatment Act will be 
amended to require that child victims of sex trafficking will 
now be considered victims of abuses and neglect, making them 
eligible to receive services within the child welfare system. 
The idea that a young person rescued from a sex trafficking 
operation could be considered an offender within the juvenile 
justice system is shocking to me and to you, as well, I am 
sure.
    These are victims in the strongest sense of the word, the 
children who have been preyed upon by those who would take 
advantage of the situation. That fear and the loneliness that 
comes from being in the foster care system, to use them to 
their own advantage and profit. Those children deserve help and 
a chance at healing and wholeness, not a criminal record.
    I have worked for many years on issues of domestic violence 
and sexual assault in the military. In 1994, I drafted the 
original Violence Against Women Act with my good friend, Former 
Representative Patricia Schroeder, and in recent years fought 
to pass numerous protections into law that provide our 
servicemen and -women with the resources, support, and the 
agency to seek justice in cases of sexual assault and to 
successfully prevent cases of sexual assault before they occur.
    In the process, I have watched women go from victims to 
survivors after receiving services that the agencies funded by 
the legislation on domestic violence have been able to offer. 
We have watched the incidence of domestic violence fall by 67 
percent since the bill was passed. And I believe we will see 
the same kind of impact from addressing sex trafficking among 
our foster youth.
    The same way millions of victims of domestic violence have 
been drawn out of the shadows and been given a chance to stand 
because of the Violence Against Women Act, I believe that this 
legislation we are talking about today and other ideas being 
considered before this committee are the path forward for these 
young people who deserve all the assistance that we can 
provide.
    Thank you very much, Mr. Chairman, Mr. Doggett, Members of 
the Committee, for your time and your consideration today. 
Thank you.
    Chairman REICHERT. Thank you, Ms. Slaughter, for all your 
hard work and concern on this issue and the team that you have 
with you at the witness table.
    [The prepared statement of Ms. Slaughter follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
  
    

                                 <F-dash>

    Chairman REICHERT. Mr. Poe, who I call ``Judge'' and he 
calls me ``Sheriff,'' he has done a lot of work in this area, 
and I am so pleased to have the Judge here.
    Judge, you are recognized for 5 minutes.

  STATEMENT OF THE HON. TED POE, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. POE. Thank you, Chairman Reichert, Ranking Member 
Doggett, for inviting me to testify on this important issue.
    As you have mentioned, in my former life, I spent 22 years 
at the criminal courthouse in Houston and 8 years before that 
as a prosecutor. That is where I first heard about you, 
Sheriff. And the whole country appreciates your relentless work 
on the Green River murders even to this day.
    Child abusers, sex predators are the worst criminals in our 
society. Too often, the justice system unfortunately ignores 
the victim of this crime.
    When I first came to Congress, Congressman Jim Costa and I 
founded the Victims' Rights Caucus. The VRC is currently 
focused on combatting human trafficking. This topic is 
particularly of interest to me because my hometown of Houston, 
Texas, is unfortunately a hub of this despicable crime of human 
trafficking.
    Many are not aware that modern-day slavery occurs right 
here in the United States, as Ranking Member Doggett has 
mentioned. The problem is very real, especially among 
vulnerable youth in the child welfare system.
    This is Anna's story, which was given to me by Shared Hope 
International. After Anna's family passed away, she was placed 
in foster care at the age of 3. She was shuffled from home to 
home until the age of 12, when she was finally adopted by a 
family.
    Anna began hanging out at the wrong place, a corner store, 
and her family, of course, did not know that she was there. She 
met a person who she thought she could trust. Little did she 
know the person she met at the corner store was not a friend at 
all. One day, she got into a fight with her parents and she 
called the one friend that she thought she had, who picked her 
up. She didn't know that this call would change her life 
forever.
    This individual was actually a sex trafficker. He was 
violent. He beat Anna. He sold her body. The emotional, 
physical, and sexual abuse continued for a long time. He 
threatened to kill her family if she ever called the police. He 
also told her that if the police ever found her they would 
arrest her. And that is exactly what happened. She was arrested 
and charged with prostitution. She was treated as a criminal. 
But she was a victim of crime.
    Anna became convinced her family didn't want her any 
longer, and she felt helpless and scared. This is a typical 
situation, unfortunately, for girls like this.
    After 4 years of this abuse, she escaped and was reunited 
with her family. And through strength and resilient spirit and 
with the help of her mother, Anna vowed to make a difference 
one victim at a time. Now she runs a ministry for sex 
trafficking survivors and runs an outreach program for at-risk 
youth.
    Unfortunately, Anna's story is not that unique in this 
country. The scars from the foster care system stayed with her 
and made her vulnerable to trafficking. Many foster youth have 
experienced neglect, physical, emotional, and even sexual 
abuse. These factors make the children more susceptible to 
trafficking.
    And the child welfare system has many problems, and one 
major challenge is not only to put a roof over the child's head 
but to instill some values like self-worth into all of these 
children. We must remember that child sex predators, when they 
commit these crimes against our youth, are trying to steal the 
soul of the victim when they commit sexual assault.
    I will soon introduce the Justice for Victims of 
Trafficking Act, along with Congresswoman Maloney from New 
York. The companion bill will be also offered in the Senate by 
Senators Cornyn and Wyden. This bill will create a grant 
program to help State and local governments develop and 
implement comprehensive victim-centered programs.
    It creates a Domestic Trafficking Victims' Fund at the 
Treasury, financed through the fines on persons convicted of 
human trafficking and child exploitation, which can be used to 
fund support programs for victims. Criminals, Sheriff, will 
literally pay for the crime and the system that they have 
created. Included in this bill are a number of other provisions 
to ensure victims receive justice and traffickers and buyers 
are prosecuted.
    Mr. Chairman, across this country we have 5,000 shelters 
for animals. I have gotten one of my three dalmatians from an 
animal shelter. I love those places. But in the whole country, 
according to Shared Hope International, there are only 226 beds 
for minor sex trafficking victims. We can do a lot better.
    The Justice for Victims Act that I introduced--and I have 
already introduced the End Sex Trafficking Act. This bill will 
help combat human trafficking by targeting criminals who 
purchase sexual acts and ensuring they are prosecuted just like 
the trafficker. The bill goes after the so-called anonymous 
buyer of sex trafficking. It targets the demand to stop the 
sale of our children. The days of boys being boys in this 
country are over when it comes to exploitation of our children, 
and the long arm of the law needs to go after these consumers.
    I commend you for holding this hearing today. And that is 
just the way it is.
    Chairman REICHERT. Now you know why we call him ``Judge.''
    Thank you, Mr. Poe.
    [The prepared statement of Mr. Poe follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
        

                     
    Chairman REICHERT. Ms. Bass has been passionate on this 
issue. She and I have had a number of discussions and have 
attended some events together and speaking out.
    And really appreciate your presence here. You are 
recognized for 5 minutes, Ms. Bass.

STATEMENT OF THE HON. KAREN BASS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. BASS. Well, thank you. Thank you very much for holding 
this hearing, Chairman Reichert and Ranking Member Doggett, for 
providing me the opportunity to testify today, but also your 
leadership today as well as yesterday on the bill that we 
passed on a bipartisan basis yesterday on the floor. As the co-
chair of the Congressional Caucus on Foster Youth, I am very 
appreciative of your ongoing commitment to improving outcomes 
for foster youth and families.
    As I have traveled throughout the country as part of the 
Foster Youth Caucus National Listening Tour, it has been 
devastating to hear the children involved in the child welfare 
system, particularly those that experience multiple placements, 
are especially susceptible to coercion and manipulation by 
traffickers.
    In Los Angeles, there is a specialized collaborative 
courthouse. This court is designed to serve commercially 
exploited youth, and they report that 80 percent of the girls 
have been previously involved in the child welfare system. 
Increasingly, in the Los Angeles area and other large cities, 
gangs are engaging in commercial sexual exploitation, too, 
selling girls in addition to drugs and guns.
    It is clear we need a comprehensive approach to prevent the 
victimization of our children. Child welfare and law 
enforcement must work together in a coordinated fashion to meet 
the needs of young survivors and prevent the exploitation of 
others.
    Unfortunately, the child welfare system as a whole has not 
truly recognized trafficking as a crisis within the foster care 
population, and they haven't incorporated protocols and systems 
to address the problem.
    I had an experience in Los Angeles where I was talking to a 
child welfare director and I asked him about the problem of sex 
trafficking in the area around the office. He told me it didn't 
exist. The day before, I had been with the FBI, and they said 
that the area right around that neighborhood was one of the 
most--one of the most trafficked areas. And so the child 
welfare agency wasn't even aware of it.
    To address the gaps, I have introduced H.R. 1732, the 
Strengthening Child Welfare Response to Trafficking Act, along 
with my colleague and co-chair of the Congressional Caucus on 
Foster Youth, Representative Tom Marino.
    Primarily, the bill would help establish local plans to 
combat trafficking, as well as ensuring national data 
collection in several important ways. The bill requires child 
welfare agencies to report missing, abducted, or trafficked 
youth to law enforcement within 72 hours for entry into the 
National Crime Information Center database. Oftentimes, these 
children are just viewed as runaways.
    The bill amends the Child Abuse Protection and Treatment 
Act to ensure that States develop comprehensive multi-agency 
plans to identify and provide services to all victims of 
trafficking. This would be inclusive of foster youth as well as 
other youth who might be commercially exploited.
    In addition to local planning and data collection, the bill 
directs the Department of Health and Human Services to submit a 
report to Congress that outlines the prevalence and trends of 
trafficking amongst child welfare youth, both State by State 
and nationwide; develops a proposal to collect annual data from 
State agencies; and proposes an ongoing method of supporting 
and monitoring efforts of local child welfare agencies to 
prevent trafficking and serve victims.
    Finally, the Strengthening Child Welfare Response to 
Trafficking Act directs the Department of Health and Human 
Services to develop and publish guidelines to assist child 
welfare agencies in serving youth who are victims of 
trafficking and preventing the exploitation of youth at risk 
from becoming victims. Although HHS recently released guidance 
to child welfare agencies on this topic, there is room for 
additional resources and specific tools. As outlined in the 
bill, the guidelines would provide example training materials 
and screening tools, service delivery strategies, protocols for 
effective cross-system collaboration, best practices related to 
residential placement, recommendations for documentation and 
data collection.
    Something else that needs to be addressed on a State level 
are girls who have been involved in the system, who have 
criminal records, and have turned their life around, and now 
they need to have those records expunged, because we 
understand, moving forward, these girls should have never been 
arrested for soliciting to begin with.
    In conclusion, we cannot continue to fail our Nation's 
children. As Federal legislators, we have a tremendous 
opportunity to ensure that local plans to prevent exploitation 
are in place as well as collect the necessary national data to 
inform future Federal strategies. While many of the social 
services needed to properly serve trafficked youth may require 
a monetary investment, these first steps do not require 
additional Federal funding.
    It has been encouraging to see momentum on this issue 
throughout the 3 years I have served in Congress, and I look 
forward to continuing working with my colleagues.
    Thank you very much.
    Chairman REICHERT. Thank you, Ms. Bass, for your testimony.
    [The prepared statement of Ms. Bass follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
   
                                  

    Chairman REICHERT. And I know that, as I said earlier, 
Senator Hatch wanted to be here today to testify. He is the 
author of legislation that also seeks to prevent trafficking of 
youth in foster care. So we asked him to testify. He couldn't 
be here, but he provided a video for us. So, next, we will 
watch Senator Hatch's testimony.
    But before we begin the video, if our member panel wants to 
leave--I know everyone has a busy schedule. You are free to 
leave, or you can stay and listen to the Senator's testimony.
    And any of the members on the panel here who have 
questions, we will just--we will meet you on the floor or we 
will send them to your office. Is that all right?
    Ms. SLAUGHTER. Indeed.
    Mr. POE. Yes.
    Chairman REICHERT. Okay.
    Ms. SLAUGHTER. Thank you.
    Chairman REICHERT. Thank you for being here today.
    Ms. SLAUGHTER. Pleasure.

STATEMENT OF THE HON. ORRIN G. HATCH, A SENATOR FROM THE STATE 
                            OF UTAH

    [Video begins.]
    Senator HATCH. Chairman Reichert, Ranking Member Doggett, 
and Members of the Subcommittee on Human Resources, thank you 
for holding this important hearing on preventing and addressing 
sex trafficking of youth in foster care. I am pleased to have 
the opportunity to tell your committee about legislation that I 
have introduced in the Senate.
    Mr. Chairman and Ranking Member, as you know, there is an 
epidemic of abuse taking place in America today. Recent reports 
estimate that hundreds of thousands of children and youth are 
at risk for domestic sex trafficking.
    The risk of sex trafficking is compounded every year for up 
to 30,000 young people who are, quote, ``emancipated,'' 
unquote, from foster care. Too many of these emancipated youth 
turn 18, pack their few belongings in a trash bag, and are 
driven to homeless shelters, leaving them vulnerable and 
exposed to traffickers and other predators.
    While in foster care, children and youth are also at 
increased risk for trafficking. In order to combat domestic sex 
trafficking and improve outcomes for children and youth in 
foster care, systemic changes need to be made in the current 
child welfare system.
    The legislation I have introduced in the Senate, the 
Improving Outcomes for Youth At Risk for Sex Trafficking, 
otherwise known as IO Youth, addresses some of the endemic and 
widespread conditions in the child welfare and foster care 
systems that make children and youth particularly vulnerable to 
being sexually trafficked. I would like to describe the 
highlights of the legislation for the subcommittee.
    Mr. Chairman, I am sure many Americans would be surprised 
to learn that most child welfare agencies will not serve 
trafficked children and youth who are not in the custody of the 
biological or foster family or living in a group home. Often, 
these children, who are not legally able to give consent for 
sex, are arrested for prostitution and referred to the juvenile 
justice system. And in many States, the courts and the juvenile 
justice system are ill-equipped to deal with the trauma these 
children and youth have endured.
    My bill requires States to provide services to youth who 
may have been trafficked or are at the risk of being 
trafficked. It also redirects Social Services Block Grant funds 
to improve the current court system to better identify and 
address the needs of trafficked youth.
    My bill includes a number of provisions to encourage, 
enhance, and support youth in foster care to allow them to 
participate in age-appropriate activities and social events. I 
hope these provisions will promote healthy development, 
increase opportunities for foster children to form meaningful 
connections, and reduce the risk of vulnerability to domestic 
sex trafficking and other negative outcomes.
    Another major risk factor for vulnerability to domestic sex 
trafficking for older youth in the child welfare system is a 
continued reliance on congregate care facilities, sometimes 
referred to as group homes. These facilities are routinely 
targeted by traffickers and are often warehouses for youth who 
are rarely, if ever, allowed to engage in healthy social 
activities.
    My legislation refocuses Federal priorities on connecting 
vulnerable youth with caring, permanent families and limits 
Federal reimbursement for very young children and, after a 
certain duration, for older youth. For those remaining in 
congregate care, those kind of facilities, the bill requires 
that youth have improved access to normal, age-appropriate 
activities.
    Many youth in foster care report that they might not have 
gone into foster care in the first place had preventative 
services been available to their biological family, which could 
have kept them safely at home. IO Youth responds to the need 
for preventive services, such as mental health and substance 
abuse treatment for fragile families, by redirecting funds from 
the Social Services Block Grant to address this need as well as 
to enhance and improve child welfare systems.
    Youth in foster care routinely report that they feel 
uninvolved, unaware, and disconnected to any planning around 
their care or future. They are not informed of their rights 
while in foster care. This can lead to a sense of 
disenfranchisement and a lack of connection to siblings, 
relatives, or other caring adults. In many cases, this lack of 
connection contributes to the void so often preyed on by 
traffickers.
    My bill requires that State child welfare agencies provide 
ongoing family funding for older youth in foster care as well 
as greater participation of youth in planning for their future. 
We want to find those families for them. It also encourages 
States to find individuals willing to be involved on an ongoing 
basis with the youth in foster care.
    Individuals who work with victims of domestic sex 
trafficking tell us that the single biggest challenge to 
successful intervention with these victims is a lack of 
accessible and affordable housing. For older youth who have 
been emancipated from foster care, not having a place to sleep 
is often a reason why they enter the sex trade. In order to 
improve housing options for these at-risk youth, my bill 
redirects funds from the Social Services Block Grant in order 
to provide housing to trafficked and other vulnerable youth.
    Chairman Reichert and Ranking Member Doggett, thanks a lot. 
And thanks again for the opportunity to share highlights of my 
legislation. I look forward to working with you and other 
Members of the Subcommittee as we move forward to prevent and 
address domestic sex trafficking.
    [Video ends.]
    [The prepared statement of Senator Hatch follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
   

    Chairman REICHERT. Well, again, if any Members have 
questions for Senator Hatch or any of the other colleagues that 
have testified today, you are free to submit them in writing.
    And now we will move on to our second panel, if they would 
please take their seats.
    Well, welcome. Happy to see you all here today.
    On our second panel this afternoon, we will be hearing 
from--and I am going to call her ``T.'' because she said I 
could do that, and as well as all the other Members. We can 
call her ``T.'' She goes by T. Ortiz Walker Pettigrew, and she 
is a board member, Human Rights Project for Girls.
    Welcome.
    Mr. John Ryan, CEO, National Center for Missing and 
Exploited Children.
    Thank you for being here.
    The Honorable Bobbe J. Bridge, President, CEO, and Founder, 
Center for Children and Youth Justice.
    Thank you, Judge.
    Ms. Melinda Giovengo, Ph.D., Executive Director, YouthCare.
    Thank you.
    And Ms. Ashley Harris, Child Welfare Policy Associate, 
Texans Care for Children.
    Thank you all for being here.
    T., you have 5 minutes or a little more if you want to.

  STATEMENT OF WITHELMA ``T.'' ORTIZ WALKER PETTIGREW, BOARD 
             MEMBER, HUMAN RIGHTS PROJECT FOR GIRLS

    Ms. PETTIGREW. Thank you so much, Mr. Chairman. I want to 
say thank you to you, the Members of the Committee, and the 
Human Rights Project for Girls for the invitation to be here 
today.
    A little bit about myself: My name is Withelma TiOra Ortiz 
Walker Pettigrew, but, yes, you can call me ``T.'' I am now 24 
years of age, and I am currently a student here in Washington, 
D.C., at Trinity Washington University.
    Previous to being a student, I was a youth who grew up in 
foster care for pretty much the first 18 years of my life. 
Throughout that time, from the ages of 10 to 17, I was a victim 
of sexual exploitation and trafficking here, domestically, in 
the United States throughout the States of California, Nevada, 
Oregon, and, of course, your State, Washington.
    I am here to tell you why I and other youth in foster care 
are rendered more vulnerable to be sexually trafficked. So, 
first of all, we accept and normalize being used as an object 
for financial gain. We also experience various people who 
control and come in and out of our lives. We lack opportunities 
to gain meaningful relationships and positive attachments. And 
the traffickers, exploiters, and pimps--I use this term 
interchangeably in my testimony, as they all mean the same 
thing--have no fear of punishment due to the lack of attention 
when young people from this population go missing. In addition, 
the life instability makes it easier for exploiters to hide 
their involvement, which continues to perpetuate the foster 
youth population's vulnerability.
    So how do we accept and normalize being used as an object 
for financial gain? As we all know, there is money provided to 
caregivers by the agencies to provide and serve the youth. 
Often, this money is used by caregivers for their personal use 
or the use of their families or biological children. And, 
currently, from my knowledge, there is no system set up to 
guarantee that the money is actually being utilized for the 
child that is within the placement.
    So, oftentimes, what happens is the foster parent will say 
something the sorts of, you know, ``I don't really care what 
you do. It is not my worry. As long as, you know, you don't 
die, you know, I am going to continue to get my paycheck.'' So 
this nothing-but-a-paycheck ideology really puts the youth in a 
compromising situation in regards to how they are supposed to 
feel.
    And so what we began to do as the youth in care is 
normalize and accept that our purpose is of being a financial 
benefit of others. And so, because of this, it makes it harder 
for a youth and even for myself in my story to have seen the 
difference in bringing in finances into the foster home or of 
bringing money to an exploiter and their stable.
    So foster care normalizes that other people are supposed to 
control our lives and circumstances. Multiple roles, such as 
public defenders and social workers, come in and fluctuate in 
and out of youths' lives, most of whom are strangers to them. 
These are the people who dictate what happens in their lives--
where they live, what school they go to, and what decisions 
will be made for them socially. Foster care creates an ever-
changing environment of youth having to adapt to strangers 
making life decisions, and this is conducive to the parallel 
process of exploiters who seek to keep control of a youth's 
life.
    We also lack opportunities to gain meaningful relationships 
and positive attachments. How this plays out for others and for 
myself, opportunities to build these skills, such as problem-
solving or for what it means to reconcile after an argument, 
are denied, and instead we are just moved to another placement. 
For myself, as unfortunate as it is to say, due to the over 14-
plus placements I have endured, the most consistent 
relationship that I ever had while in care was that of my pimp 
and his family.
    Like me and many other youth in care, we become accustomed 
to being isolated, much like the victims of domestic violence. 
By adapting to multiple moves from home to home, this allows us 
to easily adapt to when traffickers move us multiple times from 
hotel to hotel, city to city, and/or State to State.
    And these exploiters go without fear of punishment due to 
the lack of attention when young people from this population go 
missing. No one looks for us. I really want to make this clear: 
No one looks for us. No one keeps us on their radar. The system 
just makes no effort. There are no AMBER alerts, no posters 
when youths from the foster care system go missing. And, 
oftentimes, group homes will avoid reporting youth missing due 
to interrupting payment.
    And, oftentimes, from the system, it is always assumed that 
we have willingly run away. Many times, that is not the case. 
Many times, we are kidnapped or other circumstances. This the 
exploiters use to their advantage. The life instability of 
foster care makes it easier for exploiters to hide their 
involvement, which continues to perpetuate our population's 
vulnerability.
    I believe child welfare agencies should be working with 
local programs which support and provide resources to youth who 
have been sexually exploited to enhance their responses with 
working with these youth to transition into a healthier 
lifestyle. They also can learn ways to identify these youth. 
For myself in care, there was many times that I had many 
absences and people knew I was absent, but those were red flags 
that should have been paid attention to.
    Child welfare agencies also need to figure out ways to make 
these children visible when they go missing. I am pretty sure 
that there are many people in society that would be willing to 
help, but they are not aware that these children are missing 
and that somebody cares about what has happened to them.
    You should also be provided trauma-informed counsel and 
care at all times. This means that the agencies should be 
actively working to gain and maintain these resources to do so. 
And, in addition, I believe cell-phone hotlines or other ways 
to respond and interact with these youth when they reach out 
should be developed.
    These youth also need to be actively involved in the 
decision-making process of their life and their circumstances. 
I feel that in California they have meetings called TDMs, which 
is team decision-making meetings. And New York also has 
something along the same processes called family team 
conferences. These are great examples of youth involvement, as 
they have the youth and their families come together--and this 
is families both biological and created--come together to make 
decisions about placement choices and things of that sort.
    You should have a constant ally throughout their time in 
care, as it is a great resource that some agencies do work with 
mentorship programs. Oftentimes, the mentoring goes uncontinued 
if the youth is not in placement. So I believe that these 
youths should be provided a constant ally throughout their time 
in care, and this person should be available whether or not the 
youth is currently in placement. This also helps in regards to 
when the youth are on the streets or in the process of being 
exploited.
    And, lastly, we need to ensure that these conversations are 
actually followed with Federal actions from the input received 
here today.
    In addition to all that I have stated here, I also serve on 
the National Foster Care Youth and Alumni Policy Council, and 
we have also been actively working to provide recommendations 
to address this issue amongst this population.
    So I want to say thank you again, Chairman, Members of the 
Committee, and the Human Rights Projects for Girls, and the 
audience, for taking the time to receive my contributions. 
Thank you to all who work on behalf of these children. You are 
all appreciated with all you do to end the vulnerability of all 
children.
    Thank you.
    Chairman REICHERT. Good job. Thank you for your testimony, 
T.
    [The prepared statement of Ms. Pettigrew follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
    

    Chairman REICHERT. And I let her go a little bit long 
because I think we all agree that is special testimony that we 
all need to hear. It doesn't mean that the other four witnesses 
don't have something important to say, but--so you will be held 
to the 5-minute rule, Mr. Ryan.

 STATEMENT OF JOHN D. RYAN, CHIEF EXECUTIVE OFFICER, NATIONAL 
           CENTER FOR MISSING AND EXPLOITED CHILDREN

    Mr. RYAN. Duly noted, Mr. Chairman.
    Thank you, T., for sharing your powerful story with us. It 
is very compelling.
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to speak about this problem of sex trafficking of 
our youth in foster care in the United States.
    As you know, the National Center is a private nonprofit in 
operation since 1984. We were designated by Congress to serve 
as the Nation's clearinghouse on missing and exploited 
children's issues.
    We have several programs to address child sex trafficking, 
including our CyberTipline, an online reporting mechanism for 
suspected child sexual exploitation, including child sex 
trafficking and child pornography; additionally, our Child Sex 
Trafficking Team, made up of dedicated analysts who support law 
enforcement's effort to arrest and prosecute those who sell our 
children for sex; and our Critical and Runaway Unit. These are 
specialized case management teams that handle cases of missing 
children who are also possible sex trafficking victims.
    NCMEC partners with the FBI and the Justice Department in 
the Innocence Lost national initiative. Since 2003, NCMEC has 
served as a clearinghouse for information and provides 
analytical support to the 66 Innocence Lost task forces 
throughout the country. These task forces operate cross-
country. This is a targeted, coordinated, 3-day sweep of child 
sex trafficking venues. These operations have rescued more than 
2,700 children who have been trafficked and arrested more than 
1,300 pimps. Several of these prosecutions have resulted in 
life sentences. This year, the youngest child recovered was 13 
years of age.
    When they hear the term ``child sex trafficking,'' most 
Americans think that it only happens in other countries or that 
foreign children are brought here to be sold in large cities. 
In fact, we have learned that most of the victims of child sex 
trafficking are American kids who are trafficked in small towns 
and large urban areas. If people are not aware of it, they are 
not looking for it.
    How prevalent is child sex trafficking? In 2012 alone, one 
out of eight endangered runaways reported to the National 
Center were likely child sex trafficking victims--one out of 
eight. This number has tripled since we started comparing 
missing children to trafficked children.
    An often overlooked aspect of child sex trafficking is that 
it is also a problem of missing children. Many child sex 
trafficking victims are missing from their parents, legal 
guardians, or foster care placements. These are the most 
vulnerable of children. Traffickers know this. They actively 
target runaways and then lure them into the sex trade using 
psychological manipulation, illegal drugs, and violence.
    Foster children are easy targets for pimps. These children 
are the most susceptible to the manipulation and false promises 
that traffickers use to secure their trust and dependency. Of 
the children reported missing to NCMEC in 2012 who were likely 
child sex trafficking victims, 67 percent were in the care of 
social services or foster care when they ran--67 percent.
    Let me give you one example. The National Center received 
reports of a young girl who was 15. She had been reported 
missing 13 times before she was placed in foster care. Law 
enforcement got involved, and the pattern continued of her 
running away.
    We found through our reports that this child had several 
tattoos, many of them pronounced. Tattoos are a sign of 
branding by these pimps. They market these products, these 
young girls, these victims.
    We were able to develop leads through public records 
databases that this girl was being trafficked on an online 
classified service. We sent that information to law 
enforcement. They set up a sting operation, they made a call to 
arrange a date with this young girl, and they were able to 
rescue her.
    This girl reported that for the last 2 years she had been 
victimized, on average, five times per night for that 2-year 
period.
    The most important thing we can do is to change the 
conversation from a juvenile delinquency issue to child 
protection issue. These children cannot just walk away. They 
must be rescued and treated as victims.
    All child welfare agencies must report missing foster 
children to law enforcement. The National Center, working with 
law enforcement, when we have this information we can 
interdict, we can help find this child before they are 
victimized. We have systems that are in place in some States, 
but it must be universal, consistent, and mandated.
    Thank you for your interest, and we look forward to working 
with this committee and all the proposed legislation that has 
been proffered here today. Thank you.
    Chairman REICHERT. Very good. Thank you, Mr. Ryan.
    [The prepared statement of Mr. Ryan follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
   
    Chairman REICHERT. I would like to take just a moment to 
introduce our next witness, who happens to be from Washington 
State and is an old friend of mine back in our criminal justice 
days together.
    Justice Bridge is from my home State, as I said, and has 
more than 19 years of experience with child welfare and has 
been recognized as a leading advocate for foster care and 
juvenile justice reform.
    Justice Bridge founded the Center for Children and Youth 
Justice in 2006 to reform Washington State's juvenile justice 
and child welfare systems. And, recently, I think January 2010, 
you were given the Advocacy Spirit Award, national spirit 
award, by the--and you were a Defender of Rights and the 
Dignity for Our Youth Award in January of 2010.
    So it is good to see you, and I am happy that you were able 
to be here. And I understand it coincides with a conference 
that will be held tomorrow.

    STATEMENT OF THE HON. BOBBE J. BRIDGE, PRESIDENT, CHIEF 
 EXECUTIVE OFFICER, AND FOUNDER, CENTER FOR CHILDREN AND YOUTH 
                            JUSTICE

    Ms. BRIDGE. Thank you very much, Mr. Chairman Reichert, who 
I resist calling ``Sheriff'' as well, and Members of the 
Subcommittee.
    Thank you for inviting my testimony today. It is an honor 
to participate in this discussion of the ways in which we can 
prevent, effectively intervene, and ultimately eradicate the 
commercial sexual exploitation of vulnerable children in our 
communities, especially those in the foster care system.
    I am Bobbe Bridge, founding president and CEO of the Center 
for Children and Youth Justice. The center, informally known as 
CCYJ, is a private nonprofit established in 2006 to advance 
justice for and to enhance the lives of children and youth in 
the juvenile justice and child welfare systems through juvenile 
justice, child welfare, and related systems improvement.
    As Chairman Reichert noted, prior to founding CCYJ, I was a 
trial judge in King County Superior Court for 10 years, during 
which time I presided over hundreds of child abuse and neglect 
and juvenile delinquency cases. Would that I had known the 
right questions to ask.
    During my 8 years of service as an associate justice of the 
Washington State Supreme Court, I reviewed these same cases and 
also became involved in system change efforts in child welfare.
    I learned valuable lessons. No one part of the system--no 
one system--can alone address the multiple and complex needs of 
abused and neglected children and youth. Fortunately, 
Washington State has a robust history of collaboration, both 
cross-discipline and cross-system, in child welfare.
    Ms. BRIDGE. This history has led to a number of changes in 
practice in our child welfare system that have resulted in 
better outcomes for our children and youth in foster care.
    But information that is coming to us now regarding the 
extent to which these children, who have been in foster care or 
are currently in foster care, are becoming victims of sex 
trafficking, or CSEC, as we call it, commercially sexually 
exploited children, presents a new reality which requires new 
approaches.
    I would like to focus my brief time on describing a 
systematic approach that might prove valuable in your response 
to this reality.
    A lot remains unknown about CSEC, but what we do know is 
that by bringing professionals from the various systems that 
interact with those who either are or who are at risk of 
becoming CSEC together with survivor and community voices in 
authentic, collaborative, and coordinated responses, we are 
more likely to create successful outcomes for these children.
    The State of Washington is in the process of implementing 
such a collaborative model. Project Respect is the working 
title for the CCYJ-led project, which has resulted in the 
development of the Washington State CSEC Model Protocol.
    The purpose of the project and of the protocol is to 
implement that State-wide coordinated response that is best-
practice- and data-driven that will identify, engage, and 
better serve commercially sexually exploited children and youth 
in Washington State--children and youth who are victims, not 
criminals--and to hold their perpetrators accountable.
    With a combination of public and private funding, last year 
we brought together over 200 people--survivors, system 
professionals, advocates, and community members across the 
State--to discuss the context of CSEC in their communities, the 
responses that were currently being used, the gaps in data and 
services, and to explore what the components of a model 
response protocol should include.
    With the result of this effort, a draft protocol was 
prepared, vetted to a number of State-wide leaders, and 
finalized. This year, working together with our partner, 
YouthCare, five sites, some multicounty, have been trained on 
the protocol and on best practices in working with CSEC.
    Also during this year, the Washington State Center for 
Court Research of the Administrative Office of the Courts is 
leading an effort to work with stakeholders and those pilot 
sites to develop a data collection plan involving law 
enforcement, courts, child welfare, and service providers.
    The progress of the protocols and the policy implications 
of the work at the local sites will be being reviewed by the 
newly created Washington State CSEC Coordinating Committee 
established by the legislature in the 2013 legislative session 
and convened by the Washington Attorney General.
    Lessons learned have led us to some promising systemic 
actions that could be undertaken by this subcommittee.
    First, providing guidelines, direction, and resources for 
the cooperative and consistent collection of data on the 
prevalence of CSEC, their pathways to becoming trafficking 
victims, and to effective practices for prevention and 
intervention.
    Providing guidance and incentives for collaboration and 
cooperation at both the State and local levels to develop model 
protocols for improving our response to CSEC. And critical here 
to success is the necessary participation of the State and 
regional child welfare agency at its highest level.
    Providing direction and incentives to State child welfare 
agencies to focus on children missing from care and to recruit 
and train specialized foster homes to receive those who are 
found to be CSEC. Safe and stable housing should be made 
available to those for whom independent living is the best 
option.
    Providing specific resources through the Court Improvement 
Act for judicial training and identification of CSEC and for 
advocates as a resource to the courts when a foster child is 
identified as CSEC.
    Providing training to child welfare workers on the 
identification of CSEC, including the use of special assessment 
tools and casework practices that reduce running from care.
    Mandating changes in State child welfare laws so as to 
include a trafficked child in the definition of an abused 
child.
    I thank you for this opportunity to be a part of finding 
solutions to the sex trafficking of youth in foster care. On 
behalf of CCYJ, I would submit that whatever efforts we 
undertake to address the proliferation of sex trafficking of 
our former and current foster youth should be research-based, 
collaborative, coordinated, data-driven, and sustainable.
    These efforts should focus on identification and support of 
the victims and must recognize that this is a crime of mobility 
which requires a unified and consistent response, a response 
that does not merely move the incidents from one neighborhood, 
one county, one State, to another. And, hence, the beauty of 
this Federal leadership on these issues.
    Thank you very much.
    [The prepared statement of Ms. Bridge follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
    

    Chairman REICHERT. I would also like to introduce another 
friend from Washington State, Ms. Giovengo, who has over 27 
years of experience developing and implementing reengagement 
programs for out-of-school and homeless youth. She is the 
executive director of YouthCare, which helps homeless youth and 
operates the only program in Washington State providing 
residential services for sexually exploited youth.
    You are recognized for 5 minutes.

   STATEMENT OF MELINDA GIOVENGO, PH.D., EXECUTIVE DIRECTOR, 
                           YOUTHCARE

    Ms. GIOVENGO. Thank you. Good afternoon, Chairman Reichert 
and Members of the Subcommittee. I am grateful for the 
opportunity to address the subcommittee on this important 
topic. As said, my name is Melinda Giovengo, and I am the 
director of YouthCare, located in Seattle, Washington.
    Since 1974, YouthCare has been a leader in providing 
effective services to help Seattle's runaway and homeless youth 
get off the streets and prepared for life. We were founded to 
help eliminate the sexual exploitation of children in our 
community. Our agency's dynamic programming and collaboration 
serve as a model for working with runaway, homeless, and 
sexually exploited youth, both locally and nationwide.
    Runaway homeless youth are at high risk for sexual 
exploitation. Recent studies, as have been cited here today, 
estimate that there is an exorbitant prevalence between these 
two populations prior to these young people entering our 
services.
    To better serve the clients of YouthCare, we operate the 
Bridge Continuum of Services for Sexually Exploited Youth, 
consisting of: identification and outreach strategies; 
community-based advocates, which I like to call lifelines; 
emergency shelter programs; long-term housing; and, most 
important, education and employment training, which helps offer 
these young people an opportunity to find a way out of 
exploitation. These services are trauma-informed and are often 
victim--and victim-informed.
    The city of Seattle estimates there are between 700 and 
1,000 homeless youth on our streets every night. The Seattle 
area also has a significant problem with sexual exploitation 
and the trafficking of children. In 2008, a study in King 
County conducted by Dr. Debra Boyer identified 238 unduplicated 
minors involved in prostitution and determined the prevalence 
of sexually exploited youth in King County to be between 300 
and 500 per year.
    The long-term risks for youth in foster care are well-
documented, but it is only in recent years that the prevalence 
of sex trafficking among youth in foster care has been widely 
recognized. Many of the runaway and homeless youth served at 
YouthCare are part of the foster care system or have aged out, 
and even more have histories of involvement with child welfare 
through CPS reports and investigations.
    We see youth every day who are being trafficked and 
exploited and who are system-involved for whom the system has 
failed. It is the system's involvement, combined with their 
runaway and homeless status, which makes them uniquely 
vulnerable to pimps and traffickers.
    Today, I will highlight five key issues and offer 
recommendations to address each of these.
    Youth in foster care are disproportionately at risk for 
victimization through sex trafficking due to their prior abuse 
and lack of social and familial support and frequency of 
running away. YouthCare recommends that the child welfare 
agencies create a strategic plan for how to prevent trafficking 
among youth in care and identify and respond to youth who do 
become victims of sex trafficking.
    Second, the youth in foster care are often victims of sex 
trafficking before social workers and foster parents or other 
providers are aware. YouthCare recommends that screening, 
intake, and ongoing service planning should include measures to 
screen for indicators of trafficking, such as childhood sexual 
abuse.
    We further recommend that all child welfare staff and 
foster parents receive mandatory training on identifying and 
responding to sex trafficking and that specific resources be 
dedicated to meet the needs of victims and foster parents and 
social work staff.
    And, finally, we recommend that social work and child 
welfare agencies participate in regional task forces or 
protocol development in efforts to respond to sex trafficking, 
while partnering with our runaway and homeless youth programs 
across this Nation to help lay the framework for a cross-
country and very deep intervention strategy for these young 
people.
    State-dependent youth who are missing from care cannot 
legally be housed in homeless youth programs receiving Runaway 
and Homeless Youth Act money or HUD funds. We recommend that 
RHY language and HUD language be amended to allow for the 
provision of services to State-dependent youth if other 
placements are deemed inappropriate.
    The fourth is the scope and prevalence of sex trafficking 
in youth in foster care is not systematically tracked or 
quantified, and the lack of data is a significant barrier to 
the effective response. It is recommended that data strategies 
should be implemented to accurately quantify how many youth in 
the foster care system and in the runaway and homeless youth 
systems are being sex-trafficked.
    And, finally, responses to sex trafficking at the State and 
local levels are varied and inconsistent. YouthCare recommends 
that policies be enacted whereby allegations of sex trafficking 
are automatically screened for investigation by child 
protective services and that the definition of abuse and 
neglect is expanded to reflect the abuse and harm caused by 
pimps, traffickers, buyers of commercial sex, and other 
custodial perpetrators accessing children through the 
commercial sex trade.
    Youth in foster care are at significant risk for many 
damaging and impactful outcomes, not the least of which is the 
victimization through sex trafficking. Significant resources 
and strategies should be vetted and implemented in order to 
identify victims and increase the capacity of child welfare 
agencies to protect youth from these harmful and devastating 
experiences.
    Thirty years ago, YouthCare ran a program helping 36 young 
women off the streets and out of the victimization of 
prostitution. I sit here 30 years later with the same 
recommendations I would have had then. I see and hear from many 
of these 36 young women that I knew. They call, they say, 
``Thank you.'' They have jobs, they have college degrees, they 
have families, they have lives. The young people I see now were 
not even born when they were in my care.
    How many thousands of young lives have been lost in those 
30 years? How many more before we recognize that these are not 
incorrigible, immoral delinquents that need to be dealt with 
but children who are victims of the most heinous forms of abuse 
in our communities and they need our help, support, care, and, 
dare I say, love to regain their lives? How many more and how 
long before those children become our children?
    I would sincerely like to thank the subcommittee for its 
interest in hearing YouthCare's recommendations for improving 
the child welfare system's response to sex trafficking of youth 
in foster care.
    In closing, we deeply appreciate the dedication of this 
subcommittee, and particularly of you, Chairman Reichert, to 
provide leadership and bipartisan commitment to combatting sex 
trafficking. We look forward to your continued efforts and 
collaboration and are honored to be a resource in any way 
necessary as you move forward on this important issue.
    Chairman REICHERT. Thank you for your testimony.
    [The prepared statement of Ms. Giovengo follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
    
    Chairman REICHERT. Ms. Harris, you are recognized.

STATEMENT OF ASHLEY R. HARRIS, CHILD WELFARE POLICY ASSOCIATE, 
                    TEXANS CARE FOR CHILDREN

    Ms. HARRIS. Good afternoon. My name is Ashley Harris, with 
Texans Care for Children. We are a State-wide, nonpartisan, 
nonprofit advocacy organization dedicated exclusively to 
improving the lives of Texas children through policy change.
    As a former caseworker for Child Protective Services in 
Texas for over 4 years, I truly appreciate the opportunity to 
provide a firsthand account of how this horrible crime impacts 
foster kids and those guided to protect them.
    I have to first acknowledge T.'s testimony because I think 
we can all agree who the real experts are, and those are our 
former foster youth and those currently in care.
    So thank you for your testimony.
    With my testimony, I hope to offer recommendations for the 
committee's consideration and opportunities for improvements. I 
have included additional items for the committee's 
consideration in written testimony; however, because of time, I 
will specifically highlight the role that training, lower 
caseloads, and case monitoring has on the identification and 
protection of our most vulnerable children: those removed from 
their home due to abuse and neglect and placed in foster care.
    Since hearing the recent reports that a majority of likely 
child trafficking victims who are reported missing ran away 
from either foster care or a group home, I have been reflecting 
on my days as a former CPS caseworker and one of my former kids 
from my caseload. Stephanie was a bright, beautiful, and funny 
young adult. I worked with her for over 3 years and knew her as 
my ``runner'' due to her monthly habit of running away from 
every single placement.
    Since birth, Stephanie's life and sense of self was defined 
by how others used and abused her body. As a teen, she acted as 
though running away from care, sometimes selling herself to 
others, was a way to exert control over her body and her life--
a tragic and flawed way of thinking that was a direct 
consequence of all she had endured.
    Each time Stephanie returned, I would pick her up. She 
seemed fine, and on we went to the next place. I never stopped 
to ask the questions that would have allowed me to truly 
understand her experience and the impact of being away from 
foster care, all alone, exploited, and broken, without a person 
or system to protect and support her.
    With a caseload of over 30 teenagers or more at a time, 
well above the recommended caseload of 12 to 15 per caseworker, 
getting her shelter was more of a priority than ensuring her 
social and emotional wellbeing. Caseworkers are the people 
charged with protecting some of our most vulnerable children 
and should be provided a manageable caseload that ensures 
appropriate supervision, that does not leave children at risk 
for further abuse and neglect, and promotes a child's ability 
to thrive both in and out of the child welfare system.
    I also regret that the training I received as a caseworker 
had not provided me the skills and support needed to understand 
the impact of trauma on healthy child development and identify 
behaviors and characteristics that increase the likelihood that 
children in foster care will be victims of exploitation and 
trafficking.
    For many State child welfare agencies, training on these 
topics is not part of the initial basic skills development 
provided to newly hired caseworkers. Additionally, basic 
training on human trafficking, reporting laws, and information 
on appropriate resources should be provided to all 
professionals who are likely to come into contact with possible 
minor victims who may be on runaway.
    Stephanie's story represents the experience of many 
homeless teens and those involved in foster care, living on the 
streets by themselves with no one to protect them and, frankly, 
no one really looking. When these children run away from State 
custody, the system must respond in an expedited manner and 
make best efforts to locate the child and address their safety 
and wellbeing. As their parents, the child welfare system has a 
responsibility to address the needs of foster children and 
ensure their supervision and security.
    The susceptibility of children in foster care to human 
trafficking must take precedence in the strategic plans of 
State and local child welfare organizations. These children are 
all of our children. And as the Nation continues to look at 
ways to combat human trafficking, we must do a better job at 
identifying, protecting, and supporting vulnerable youth like 
Stephanie to prevent them from becoming another statistic, 
helping them thrive and become healthy, productive, and happy 
adults.
    Thank you so much.
    [The prepared statement of Ms. Harris follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
    
    
    Chairman REICHERT. Thank you all for your testimony.
    I couldn't help but sort of think back to the days when I 
was on the street as a police officer, as a homicide detective, 
and as a detective working the Green River serial murder case. 
That was really central around young girls and young ladies who 
were victims on the street being taken advantage of. And, 
sadly, some lives were taken by a monster who was prowling the 
streets.
    And what my memory brought me back to were some of the 
things that you all said, especially, Melinda, your comment 
about 30 years ago you had made the same recommendations. I see 
that so clearly. Thinking back, not much has changed--a little 
bit, some has changed, but not nearly enough. We have so much 
work to do.
    And what I also appreciate about our first panel, too, was 
that they did bring some solutions. They are working on some 
legislation, I think, that can be helpful. But what I 
appreciate about this panel is, not only have you described the 
problem for the Members here today from your perspective, but 
you have also provided input as to what you see as solutions, 
which is really tremendous help for us.
    But I am really curious--and, first, my first question will 
go to T. We had a chance, as I said earlier, to meet a little 
bit before the hearing.
    But, first of all, I know that every Member up here really 
recognizes the courage it takes to come and speak in front of 
Congress, first of all, but to tell your story. I know it is 
hard because I have trouble telling my own story, as you and I 
witnessed earlier. So thank you for being here, and thank you 
for having the courage to come and testify today.
    So you have heard some of the ideas about what we could do 
to prevent kids in foster care from entering into a life of 
human trafficking. From your point of view, it would be very 
helpful to us to know, what do you think? What can we do as 
Members of Congress, what can the Federal Government do to help 
ensure that young kids get a good, permanent, loving home and 
stay off the streets and stay out of this world that we know is 
so destructive?
    Ms. PETTIGREW. Thank you again, Chairman. I think something 
that is very important to me--first of all, I would like to say 
everything that was spoken at this panel I fully support as a 
survivor and as someone who has the perspective of living the 
reality.
    One thing that I think that was really helpful, I know for 
my own story and for many other stories, is that we all escape 
in different ways, but I think it really comes down to 
comprehensive, trauma-informed, and gender-specific care and 
services. And that means, you know, for both girls, boys, 
transgender, LGBTQ. I think that what is so important is that 
we really have it where it is comprehensive. And what I mean by 
that is that it is not just professionals but as, you know, 
stated here, it is also victim-informed. I think that that is 
the best way that we can really start to find the gaps, the 
holes, in which youth are actually falling through.
    For myself, you know, it started with, you know, the 
connection to a youth advocate who was very much trauma-
informed and really actually knew about my story for years 
previous. And so it really takes a conglomerate of different 
people and officials who come together to really say, we are 
going to start standing up for these youth.
    Does that answer your question, Chairman?
    Chairman REICHERT. Yes, it does, very well.
    Ms. PETTIGREW. Thank you.
    Chairman REICHERT. And I think that we--of course, go 
ahead. You have something else----
    Ms. PETTIGREW. Oh, I just had another thing that I wanted 
to say, is that, in addition, I think that we need to really 
look outside and think outside the box. Something that I find 
to be very helpful in addition to all of that are, you know, us 
thinking outside the box in the effect of--you know, I know, 
for myself, I had a juvenile defender who, you know, although I 
wouldn't be in placement, still maintained contact. I had, you 
know, cell phone, email, and no matter what, she would maintain 
contact with me.
    Also, I think that we need to go back to the real 
terminology of things. As professionals and as people who want 
to make a difference, we need to understand that labeling is 
real in all terms. So even as, you know, well-intentioned our 
work is, using the terminology of ``children prostitution'' or 
``child prostitutes'' becomes very offensive, and it really 
is--it makes it a hard time for young people to be able to 
overcome their victimization. These young people should never 
be referred to as ``prostitutes'' or ``prostituted children'' 
because they oftentimes aren't even of legal age to consent to 
sex, so how can they be selling something that they don't have 
the legal right to have?
    And so, I think, us just taking that into account--you 
know, even as a survivor, I wouldn't say that I am just a 
survivor, but I am a thriver and an overcomer. And just 
understanding that those labels are all integrated in the way 
that we see ourselves and we see our futures.
    Chairman REICHERT. Thank you.
    Ms. PETTIGREW. Thank you.
    Chairman REICHERT. We are going to keep your phone number 
handy so we can give you a call and ask some questions later 
too. Is that all right?
    Ms. PETTIGREW. No problem.
    Chairman REICHERT. Okay.
    Justice Bridge, what do you see as the courts' role in 
helping to reduce the vulnerability of youth in foster care? 
How can courts work with child welfare agencies to ensure that 
these kids are kept safe from harm?
    Ms. BRIDGE. Well, first, I am going to put T. on speed 
dial, as well.
    But the courts definitely have a role. And we have been--on 
the child welfare side of things, unfortunately we get siloed, 
so I have to say on the one hand child welfare, on the other 
hand juvenile justice. But we know that these frequently are 
the same populations of kids and they certainly represent the 
same needs, the same trauma as their pathway to either juvenile 
justice or child welfare.
    With that said, the courts have done a much better job of 
working with the agencies in order to ensure that our work is 
consistent, that we are governed by best practices, by actual 
data that exists, rather than by anecdote or by, worst of all, 
the comfort of the adults in the systems as opposed to the 
voices of the young people who are a part of those systems. So 
all of that, I think, is really important.
    And one of the things that I think on this particular issue 
that is so critical for us to work together on is that 
identification is a key. We need to have the best science 
possible, including specific assessments, in order to be able 
to identify who these children are.
    Many children in the State of Washington are not--on the 
juvenile justice side, don't end up in the juvenile justice 
system by being labeled as prostitutes. They come, however, 
through a variety of mostly misdemeanor offenses and the like, 
drug possession perhaps being the most frequent felony arrest. 
But there are all kind of red flags. There is all kinds of good 
learning that we can and should know, and learning together to 
identify those kids.
    Because the courts' role, in that regard, becomes not 
criminalizing this person who is a victim, this child who is a 
victim, but can intervene to more positively impact that 
child's life and make sure that they are referred to resources 
which can intervene, which can interrupt the process towards 
being even more deeply trafficked.
    And one of the things that T. mentioned that just struck a 
chord with me was what we have learned in developing this 
State-wide CSEC protocol in the State of Washington is that in 
many, many instances--and this is true for foster kids as well 
as for children who are not in the foster care system--in the 
early days of their being trafficked, they are still connected. 
They are still connected primarily to their school. They may 
not even be connected to their families or their home, because 
they are on the run, but they go to school, they kind of--they 
show up. Maybe they go to one or two classes, but they do.
    It is an incredible opportunity for educators or for the 
court, if they end up being directed to the court because of 
truancy. People have to start asking the right questions, and 
we need to know what those right questions are. And in order to 
ask the right questions, we need to be aware of what the 
warning signs are, like the missing school, like tattoos, like 
having income that is unexplained, cell phones that are maybe 
two or three of them at the same time--all of these kinds of 
issues.
    We need to be smarter, and we need to get smarter together. 
That is how the courts can work with the social service 
agencies.
    Chairman REICHERT. Thank you very much.
    Mr. Doggett, you are recognized for your questioning.
    Mr. DOGGETT. Thank you very much.
    Ms. Harris, you talked about the caseload. And I saw 
several heads nodding back and forth amongst all of you as you 
discussed various issues. But just in terms of caseload, are 
there some national standards on what is appropriate for 
working here? And how does that compare to what we have in 
Texas?
    Ms. HARRIS. The Child Welfare League of America recommends 
that caseworkers who are working with children in foster care 
have a caseload of 12 to 15 children at a time. And in Texas, 
you know, we are at nearly double that recommendation.
    Mr. DOGGETT. And how do you find that in Washington State? 
With a comparable situation?
    Ms. BRIDGE. The caseloads, I believe, have been reduced 
over the course of the past decade, let's say, but we are 
still, I believe, on average, 19 or 20.
    And particularly when you are working with vulnerable 
populations--again, you have to ask before you know, when you 
have particularly vulnerable people on your caseload, and by 
that I mean children who have been on the run from foster care. 
If you have 19 or if you have 10 on your caseload, that is far 
too many.
    Mr. DOGGETT. I know one aspect of our committee is the flow 
of Federal dollars to help out with child welfare. But I would 
just ask you, since you heard the testimony of our colleagues 
and we have heard yours, if there are specific things within 
the jurisdiction of this committee that you recommend we do, 
whether it is now or in follow-up written testimony, that you 
provide us your counsel.
    And I think you have done some of that, Ms. Harris, in 
yours, and some of the other witnesses have, as well. But 
really looking to see, isn't there a way now, immediately, that 
we can agree on some bipartisan legislation that might help a 
bit supplement what you all are doing at the State level. I 
know so much of this needs to be occurring at the State level.
    Yes? Do you have a thought on that, Ms. Giovengo?
    Ms. GIOVENGO. I do. I just would like to talk a little bit 
about what is already being done in another arena.
    If we look at how we are treating young people who are 
foreign victims of trafficking through our Office of Refugee 
Resettlement, my organization alone just received a $1.5 
million grant--amen--to be able to serve 20 beds of young 
people a year. Now, these young people then have trauma-
informed care, they have an education specialist, they have 
people working on their legal issues, they have really 
appropriate supervision and care. It is a wonderful system to 
take care of these minors who are here without papers or 
undocumented, have been trafficked across the border.
    On the other side, the RHY program receives $109 million 
for programs across the country. Runaway and homeless youth 
programs were designed and set up and appropriated originally 
to serve the needs of sexually exploited children in our 
communities.
    Couldn't we be helping the 475 programs nationally to 
become the infrastructure to respond a lot easier than to set 
up yet another system, to be honest with you. Couldn't we work 
in parallel with child welfare to use the resources we have and 
expand them to at least have some equity in how we treat our 
foreign victims and our local victims.
    Mr. DOGGETT. That is very helpful.
    Judge, did you want to add something there?
    Ms. BRIDGE. Yes. I think the exclamation point that I would 
like to make--and I was rushing through my remarks in order to 
make the appropriate timeframe. But what Dr. Giovengo was 
saying, what it really amounts to is mandating changes in State 
child welfare laws so as to include a trafficked child in the 
definition of an abused child.
    And right now--and I believe that Representative Bass noted 
this, as well--the fact is that if it is a third party who is 
the perpetrator of abuse, then it doesn't fall within most 
State statutes. Federal Government can and should be the leader 
in this, because our State statutes--99 percent of our State 
statutes mimic what the Federal statute provides.
    And these are our kids. How could this not be abuse? And 
the fact is, as someone mentioned--oh, I believe as you 
mentioned, that these are our children in the most fundamental 
way, because we have taken them from their homes, we have made 
a determination that those homes are not safe and not providing 
for their wellbeing and are not the best permanent place for 
them, and yet we then--when they run, we just don't look. It is 
shameful.
    Mr. DOGGETT. Doctor, were you going to add a comment there?
    Ms. GIOVENGO. Yeah. And I just think that, again, while we 
know resources are tight--you know, it is just always going to 
be that way--there are administrative things that we could do 
to make the systems work better for these young people.
    As it stands now, a trafficked young person who is in child 
welfare cannot have access to a transitional living program 
funded by HUD or by the runaway and homeless youth networks 
because they are under the jurisdiction, even though those 
jurisdictions haven't worked. So those kinds of things prevent 
young people from actually getting access to the care they 
need.
    If you are a foster care young person who is aging out of 
foster care, instead of being able to go directly into a 
transitional living program perhaps funded by HUD, which we 
operate, with trauma-informed care, you are not eligible 
because you can't be in the same bed that is funded by HUD.
    These things make no sense on the ground, for those of us 
that are doing the work. And it seems like we could make some 
small changes that would make huge differences in the lives of 
our young people.
    Mr. DOGGETT. Well, these are very constructive 
recommendations. To the extent they are not already part of 
your written testimony, please do feel free to supplement so we 
can look for a way to respond quickly to your recommendations.
    Thank you very much to all of you.
    Chairman REICHERT. Thank you.
    Mr. Young, you are recognized for 5 minutes.
    Mr. YOUNG. Yeah, thank you, Mr. Chairman, Ranking Member.
    What an excellent panel we have here. T., your testimony 
was inspiring. Your life story is riveting. We really 
appreciate you personalizing and humanizing this affront right 
now that all of you are doing good work to address. And I 
appreciate that.
    Judge, I was particularly struck with your systematic 
approach to trying to address sexual trafficking in the State 
of Washington. And I think we need to do more hard analysis of 
data, and I know that you and your team of stakeholders in the 
State have been doing that. You have developed a protocol here. 
And I would like to dive a little bit deeper into that with you 
with several brief questions, if you will indulge me.
    You were able to learn, as I understand it, about best 
practices or generally accepted practices in other States. How, 
if at all, did that inform development of Washington State's 
protocol? And how did you divine these best practices from 
other States?
    Ms. BRIDGE. Well, would that it were divined. That might be 
easier.
    The process for developing the protocol involved, as I 
said, over 200 people. What that meant was focused interviews, 
individual interviews, with survivors as well as folks in the 
communities on the ground, but also what we called mini-summits 
or small summits, which brought together law enforcement, folks 
from the courts, including judges, detention workers, juvenile 
probation counselors, school people, community activists, 
community advocates, social service providers, and our 
Department of Social and Health Services, our child welfare 
administrators, all trying to come together to, as I said 
briefly, share their experience on the ground but also sharing 
best practices from the perspectives of their various 
disciplines.
    In addition, before we went out into the field, as it were, 
we also did independent research and were assisted in that by 
Dr. Debra Boyer, who is a nationally known expert on practices 
relating to CSEC, or commercially sexually exploited children. 
So we developed a set of recommendations that are included in 
that protocol----
    Mr. YOUNG. Right.
    Ms. BRIDGE.--about best practices.
    Mr. YOUNG. Well, it sounds likes you did a lot of field 
work, a lot of focus groups, so to speak. And that is 
oftentimes how this sort of information is gathered.
    Perhaps I should follow up with Dr. Boyer or somebody else 
with respect to some of the homework that occurred, in terms of 
data analysis and so forth, going into those meetings. But I do 
wonder, as with so many other areas of public policy, whether 
there is something lacking, in terms of robust information 
related to this population.
    Ms. BRIDGE. Without a doubt.
    Mr. YOUNG. Okay.
    And do you see opportunities for us to improve that 
nationally, or do you think, instead, these should be State-by-
State databases, so to speak, of information collected from 
case files, as I know you are in the process of doing in 
Washington State, or other things?
    Maybe you or Ms. Giovengo could speak to that.
    Ms. BRIDGE. I will let Dr. Giovengo do a--but, certainly, 
the answer is yes. And when I mentioned at the very end about 
not just moving this issue or this population from one 
neighborhood to the next or one county to the next or one State 
to the next, it is where Federal leadership comes in.
    We are trying to figure out what data is being collected. 
We know it is very little. There should be consistent 
definitions of what ``sex trafficking'' means, what ``child sex 
trafficking'' means. And that leadership needs to come from the 
Federal Government. And when the law enforcement, for example, 
or the courts are collecting data, you know, how are they 
collecting it so it all means the same thing? And that should 
be in a Federal database.
    Mr. YOUNG. Justice--thank you.
    One final point here. In consulting with Dr. Letourneau, 
who is the director of the Moore Center for the Prevention of 
Child Sexual Abuse at Johns Hopkins University, she indicated 
that she thinks much of the emphasis needs to be placed not 
just on treatment or punishment but also interventions to 
prevent the occurrence of sexual trafficking. And I think that 
sounds spot-on.
    To the extent you have thoughts about investments, public 
investments, we need to be making that will not only save money 
but help protect persons in the longer run, I would be open to 
that testimony, either written after the fact or if you have an 
idea right now that you can quickly put forward, that would be 
great.
    Ms. GIOVENGO. Well, just some quick thoughts.
    What we have tried to do in Washington State, or at least 
in the Seattle area, is we have instituted National Safe Place, 
which is on our all of our metro buses around King County. And 
through a coalition of runaway and homeless youth providers, we 
respond to any young person in a King County library or in our 
community centers that looks in and looks like they need help.
    So metro buses--we have over 3,000 sites right now. The bus 
driver says, ``How you doing?'' They say, ``Not so good.'' She 
says, ``Do you need help?'' He calls us. In 45 minutes, we meet 
that bus in one of the largest counties in the Nation within 45 
minutes and help recover that young person, who may have set 
foot out of their house just mad because of, you know, broccoli 
or a curfew and end up on a bus with someone looking to put 
them in the most horrific situation they could ever experience.
    So the National Safe Place model is an interesting, easy, 
low-cost way to get your community involved. I think there are 
lots of early interventions with families who end up with 
shelter programs, to do some family reconciliation, not just 
let the kid go home, but to actually try to duct-tape that 
family together for a long time with some small interventions, 
versus letting them become systematized and part of our long-
term services.
    We deal mostly with young people that come in during 
adolescence, but there is a lot, I think, we could do with 
foster families in identifying and training them on the 
expertise of what it looks likes when a child living with you 
is beginning to get into this or beginning to perform, quote/
unquote, ``survival sex'' in our community.
    So I think that there is a lot of training and, actually, 
not very expensive interventions that we could to really create 
a much thicker safety net for our young people.
    Mr. YOUNG. Thank you, Doctor.
    I yield back.
    Chairman REICHERT. Mr. Renacci.
    Mr. RENACCI. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing on preventing and addressing sex 
trafficking of youth in foster care.
    I am very interested, really, in working with the members 
of the previous panel in regards to--and any other Members from 
both sides of the aisle on how Federal laws and policies might 
be improved to better ensure the safety and wellbeing of youth 
at risk of abuse and neglect.
    You know, in Ohio, on average, 12,000 children are living 
in foster care each month. Last year, more than 1,500 foster 
children aged out of care when they turned 18. When I hear 
these statistics, I am not only worried whether or not these 
individuals are prepared for life after foster care, but if the 
system was able to provide for them the sense of family and 
protection they deserve. Our jobs as Representatives is to 
ensure the foster system protects them and prepares them, 
really, for successes in life.
    T., you are an inspiration, and I thank you for your 
dedication to really helping others in foster youth.
    You mentioned in your testimony at least once, and I read 
it, about red flags that go unnoticed by child welfare 
agencies. Can you tell us some of the--what these red flags 
are?
    Ms. PETTIGREW. I think some of them are very much mentioned 
within this panel.
    Particularly, I want to say that specifically from the ages 
of 10 to 13 I was still in and out of the education system. So 
I think that definitely I want to go back to, you know, the 
absences. I think that if we take the time to integrate the 
education system in regards to identifying and in regards to 
educating them about this population, I think that that is very 
much important.
    Because I know if you would have asked me at 13, you know, 
what was going on, I would have told you that, you know, this 
is my life because I didn't know anything separate. But through 
the education of others, just much like the education system, I 
seek to find a new me and a different me. And so I think that 
definitely the education system.
    I definitely think that, yes, the cell phone thing is very 
important, very crucial. If a young child has, you know, two or 
three cell phones, you have to, like, really take at that in 
and say, what is that? You know, what does that look like?
    Not even that, just the context of the language. 
Oftentimes, you see young people using different language for 
different things. And so there is, you know, certain 
terminology, like ``green girl,'' or, you know, referring to 
one another as the ``B'' word and things like that. There are 
certain identifiers. Or saying, you know, ``Oh, that is my 
wife-in-law.'' That actually means that is another girl that 
has been victimized by the same exploiter.
    So really identifying not only the terminology being used, 
really the education and incorporating the education system in 
our hopes to make progress in identifying and helping these 
victims, but also, you know, just paying attention to changes 
of, you know, personality, withdrawing from people, being more 
isolated, things of that sort. So I think it is important.
    Because one thing that I feel is really important for 
people to understand is that, if you were to ask me at 13, I 
wouldn't see nothing wrong because I was trained to perceive my 
life in this way. I didn't see it as anything wrong because no 
one educated me to say something is wrong.
    Also, we need to understand that young people in the foster 
care system primarily aren't taught about healthy 
relationships. So we need to understand that that is a red 
flag. And if they are, you know, having relationships that 
aren't so healthy or, you know, are not clearly visible as far 
as what the relationship is, those are red flags.
    And so, you know, I think the biggest thing that I have to 
say here is that it has taken a long time for me to get to the 
place that I am, to be able to speak the way I do and to use 
the semantics that I do. And if I was 13, you know, I didn't 
have the ability to speak in this way and I didn't have the 
opportunities. But all the talents and abilities that I hold, I 
mean, my story is just a conduit of many others. And so my hope 
is that we can make these changes so that other young people 
can come to the same table and show their talents and their 
abilities.
    Mr. RENACCI. One other follow-up. You mention that the 
foster system hinders youths' decision-making.
    Ms. PETTIGREW. Yes.
    Mr. RENACCI. You know, what type of decisions should foster 
youth be more in control of?
    Ms. PETTIGREW. I mean, even in regards to a young person 
going to sleep over at a friend's house, that is not the 
youth's decision nor is it the decision of the caregiver. 
Oftentimes, you have to get, you know, approval from the social 
worker or the judge in the case, things like that.
    I also want to say that, in addition to that, foster youth 
should be more aware of their rights. Because oftentimes there 
are disruptions in the home due to a foster parent saying you 
don't have the right to call this person or you can't call that 
person, but, actually, it goes against maybe their State 
rights, that only a judge can make that decision.
    So, in that regard, I feel that, you know--does that answer 
your question?
    Mr. RENACCI. Yeah. Thank you so much.
    Mr. Ryan, quickly, I know I am running out of time, but you 
mention in your testimony that only Illinois and Florida report 
missing children to your organization. Why aren't the other 
States doing this?
    Mr. RYAN. Well, we are actually, Congressman, in discussion 
with a number of States, including Ohio, and we are getting 
great feedback. I think there is momentum now that we have 
proof of concept. We know that the reports we get from two 
States have led to the early location and finding of these 
children before they have been exploited.
    So I think that is encouraging. The fear that may, you 
know, have been prevalent with some of the social welfare 
agencies--this is a partnership. We all have a role to play 
here.
    And T. said it earlier in her comments; many times, nobody 
is even looking for these children. And you mentioned, at the 
age of 18 when they age out, that means nobody will ever have 
looked for them, and they are probably forever lost and will 
continue in whatever, you know, environment they have been in. 
So unless we can get the reports and law enforcement get the 
reports, the hope of stopping the cycle that they are bound in 
is almost hopeless.
    But States are, you know, listening, but I think at the 
Federal level, if we want a uniform, consistent approach, that 
is the best model. And I know there is some proposed 
legislation to address that. That is what we support. Every 
child in every State should be afforded the same level of 
protection.
    Mr. RENACCI. Thank you.
    And I want to thank all the witnesses.
    I yield back.
    Chairman REICHERT. Thank you.
    Before going to Mr. Reed, I ask unanimous consent to insert 
in the record an excellent article about today's hearing topic, 
titled, ``Protect Foster Children from Sex Trafficking.'' It 
was written by Conna Craig, the president of the Policy 
Institute for Children, and includes a number of specific 
policy recommendations for us to consider.
    If you haven't read that article today, you all might want 
to take a look at that USA Today article.
    [The information follows: Article ] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

                                 

    Chairman REICHERT. Mr. Reed, you are recognized.
    Mr. REED. Well, thank you, Chairman.
    And thank you to the panel for the testimony. And it is 
getting kind of lonely up here, but--so we are almost done.
    But I appreciate this topic. Obviously, we are talking 
about something that crosses across party lines, unites us as a 
nation and as people to say that this type of abuse, this type 
of problem needs to be addressed and needs to be something that 
we stand united against. So I appreciate everything you guys 
are doing.
    T., what I found very fascinating about your testimony--and 
I read your testimony. And I will read you a statement here 
that you provided in your written testimony. It says, ``Lastly, 
while I was in care, my social workers were aware that I was 
being exploited and did nothing about it.''
    I would like to know how that happens. What do you mean by 
that?
    Ms. PETTIGREW. So, what I mean by that is, even as an 
emancipated youth, I would--when trying to get some of the 
documents of my upbringing, of course, when I went back to get 
some of my, what they call, files, it clearly was stated in the 
documents that, you know, she has trauma due to years of 
exploitation on the streets. And it is the fact that they were 
made aware, but at the time in my county there were not 
resources, there were not ways to help these youth.
    I think that even though I am only 24 and we have made--we 
have made so many strides within, you know, these past couple 
of years since I have aged out. And so, I mean, you know, 
literally, we have to--I am sorry.
    Mr. REED. That is okay. You are doing fine.
    Ms. PETTIGREW. Literally, we just have to really pay 
attention and listen and stay focused to, really, the 
vulnerability of these youth.
    Mr. REED. See, because that really concerns me, with the 
people that are in the system, that their sole mission--and I 
have met so many of them, and they are just outstanding people. 
They are people that have dedicated their lives to--not for the 
paycheck but for the mission. And when I hear something like 
that, that tells me that something in the system is failing.
    And what I would like to do is hear maybe from the other 
panelists, too, T., is how that happens and how that is not 
discovered in the system. And how does a worker, whose mission 
and duty is to take care of a child in this situation, fails to 
do anything about it even though the record shows that they are 
aware of it? Can anyone explain to me where that--yeah, Ms. 
Harris.
    Ms. HARRIS. Well, as a former CPS caseworker, I can speak 
to that.
    I will admit that it may not--and I would say more often it 
is not as explicit as T.'s story, in the fact that it was in 
the case record. For me, reflecting on some of the young women 
that I worked with, I am thinking they were victims, and I just 
did not have the skills and the training to be able to identify 
that.
    But when it is explicitly documented in case record, I 
think a lot of those records, given the high turnover rate that 
you have with CPS caseworkers, that information may not be 
shared with the new caseworker. They may not have that long 
history of understanding a child's behaviors and being able to 
determine this is something that a child does often, and how 
can we ensure that they are not revictimized. And so I think 
that has a lot to do with it.
    And I think, to get at that point, it is additional 
training and a skill set that many caseworkers are not 
receiving when they are new at the job. I have to admit that 
many new caseworkers, especially in Texas, are young. They are 
right out of college. They have never had experience working 
with vulnerable children and families, and so they just don't 
automatically have the knowledge to be able to understand what 
this problem looks like and then how to respond to it 
appropriately.
    And I think access to resources is another issue. I know in 
Texas there are limited resources specifically for victims of 
trafficking, and those resources are not available in all areas 
of Texas. And so that is a huge part.
    But when it comes to those times when you know a child is 
being victimized, the system has to provide that caseworker the 
ability to respond appropriately and the skill set to actually 
be able to identify that.
    Mr. REED. Yeah.
    Ms. Giovengo, please.
    Ms. GIOVENGO. I just would like to say I think that this 
happens way more than is acknowledged. And I think it is 
because no one really has jurisdiction over this issue inside 
of child welfare. So in very few States is it the purview of 
child welfare to be intervene in these particular cases.
    I have been shocked day after day in the young people that 
come into our care at YouthCare with, when we call to report 
from our drop-in center that a young person is being 
trafficked, child welfare says, ``Well, call the police.'' To 
me--and this is a 12-, 13-year-old.
    So this is an issue of no one takes ownership over these 
young people; no one adopts them as, you know, their concern or 
their ongoing concern. And so these multidisciplinary teams 
that Justice Bridge is talking about may resolve some of that, 
in terms of we will all be accountable. But, also, we need to 
have--I mean, I think we need to have policy that says where 
does the jurisdiction lie.
    And I would say that there is a lot of teeth to the notion 
that T. brings up--and I am always humbled to be with her--
about teaching young people agency. You know, it is not rocket 
science, you know. Adolescents are not, you know, green 
monsters from the blue lagoon. You know, we know what makes 
young people feel self-confident and can stand up for 
themselves and maybe even do some reporting of their own 
things.
    And these young people in foster care are not afforded the 
opportunities to learn to drive, you know. So you take a ride 
from somebody. You know, there is a vulnerability. Or you are 
not with your friends--you can't go on an overnight with your 
girlfriend. So you figure out a way to have an overnight.
    You are just not afforded the normal developmental 
milestones and opportunities that you would be in a regular 
home. And I think that that is one of the biggest disservices 
we do to these young people out of fear of liability. And I 
think that that goes, again, with who is responsible for 
creating this person as a young adult and fostering that kind 
of growth and development in them. And it all makes them 
vulnerable to the kind of care.
    Mr. REED. Well, I appreciate that.
    Chairman, I know I am out of time, but the judge would like 
to respond, if that is okay.
    Chairman REICHERT. Well, we will let the judge talk.
    Mr. REED. All right. We will let the judge talk, as the 
sheriff says.
    Ms. BRIDGE. Well, for Ms. Harris, I want to say that there 
is somebody who is responsible at law ultimately for these 
cases, and it is the judge.
    Mr. REED. The court.
    Ms. BRIDGE. And that is a failure on the judicial system's 
part in huge magnitude, because--and that stems back, in part, 
to lack of training and the lack of ability, again, to ask the 
right questions, to be alert to the cases that are presented, 
and to, in fact, approach the caseworker, to summon the 
caseworker even into court and say, ``We have this child on our 
caseload; where is she?''
    Mr. REED. Well, I appreciate that input, Judge.
    When I was a law guardian, when I started my practice of 
law, I dealt with caseworkers and child protective services, 
and there was a huge burnout factor. I mean, it is a tough job. 
And not to have that central person, that somehow it is not 
handed to caseworker, caseworker, caseworker, but a referral to 
a judge, I mean, these should be the cases that rise to the 
top, to say, hey, we have something very significant going on 
here and to take care of.
    And T.--please, T.
    Ms. PETTIGREW. I just have one more thing to say, is that--
--
    Mr. REED. Yes.
    Ms. PETTIGREW [continuing]. As it aligns and it does fall 
in the courts and with the judge, I think that one thing that 
we--just out of, like, lack of knowledge and out of just fear 
of protection, I think what happens all too often is that we 
have, you know, judges who are misinformed or not clearly 
educated, and their way of safety is to lock the young people 
up in detention. And I think that we need to be really clear 
when we say these young people get no rehabilitation, no 
trauma-informed services. They are basically locked like a dog 
in a kennel waiting for somebody to pick them up on the next 
try.
    So I just really want to make that clear, that as we defer 
this issue towards the judges, that they need to be educated 
and informed of other resources, abilities, and ways and 
protocols to deal with these young people.
    Mr. REED. Great input, T. Thank you very much.
    And I thank the panel.
    And I yield back, Chairman.
    Chairman REICHERT. Thank you, Mr. Reed.
    Well, thank all of you for being here, a little over 2 
hours of your hearing. And I just want to say again how much I 
appreciate what you all are doing to help our young people 
across this country. And thank you for being here today to 
testify.
    There were a number of things that really struck, I think, 
a lot of the Members here today. I know, for me, again, it 
always brings me back to those days when I was working with 
those young people on the street.
    And one of the things that T. said about healthy 
relationships and not really knowing what that healthy 
relationship was, you know, when you think about it, most 
people in this country don't understand what she just said, 
because they have a healthy relationship.
    And when you say, T., I really didn't know what that was, I 
didn't know what love was, I didn't know what a family was, I 
didn't know what that was, people don't get it. I get it. I get 
it.
    So, also, I wanted to mention that we have had a series of 
hearings. One of those hearings, a few months ago, was about 
children being children and allowing foster kids to participate 
in sports and get rides home with coaches and other parents and 
get a driver's license. And so that is a part of this whole 
effort.
    As we move forward and have additional hearings and stay in 
touch with you, what we would like to do is provide some of the 
thoughts that we are having along the lines of what legislation 
might look like, forward those to you, get your input, so that 
we can make sure this is right. We want to get this right 
because it is about the future of this country, it is about 
saving lives, it is about saving the lives of our children.
    So thank you all very much.
    And I must say this last sentence for the record. If 
Members have additional questions for the witnesses, they will 
submit them to you in writing, and we would appreciate 
receiving your responses for the record within 2 weeks.
    The committee stands adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]

    [Submissions for the Record follow:]

               Foster Family Based Treatment Association 
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   
               


                                 <all>
</pre></body></html>
